      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                         Washington, D.C. 20201




May 17, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services

               /Diann M. Saltman/ for
FROM:          George M. Reeb
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Medicare Payments to Prescription Drug Plans on Behalf of Deceased
               Enrollees (A-05-09-00027)


The attached final report provides the results of our review of Medicare payments to prescription
drug plans on behalf of deceased enrollees.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(410) 786-7104, or through email at George.Reeb@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-05-09-00027
in all correspondence.


Attachment
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF MEDICARE PAYMENTS TO
  PRESCRIPTION DRUG PLANS ON
 BEHALF OF DECEASED ENROLLEES




                         Daniel R. Levinson
                          Inspector General

                             May 2011
                           A-05-09-00027
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
established the Medicare Part D prescription drug benefit. Medicare Part D offers Medicare
beneficiaries prescription drug options for health care coverage.

The Centers for Medicare & Medicaid Services (CMS) makes payments at the beginning of each
month to prescription drug plan sponsors for direct, reinsurance, and low-income cost-sharing
subsidies for individuals enrolled in prescription drug plans. After an enrollee dies, the last
allowable payment is for the month in which the enrollee died. CMS has systems that identify
deceased enrollees to initiate disenrollment and prevent improper payments made to prescription
drug plan sponsors for the months following the enrollees’ deaths.

For the period July 1, 2005, through July 31, 2007, approximately 2.7 million Medicare enrollees
(as identified on the Social Security Administration’s (SSA) systems) died and had at some point
been enrolled with prescription drug plan sponsors.

OBJECTIVES

Our objectives were to determine whether CMS (1) made payments on behalf of deceased
Medicare enrollees to prescription drug plan sponsors for coverage periods after the enrollees’
months of death and (2) recovered payments made on behalf of deceased enrollees on a timely
basis.

SUMMARY OF FINDINGS

CMS made approximately $3.6 million of unallowable payments on behalf of deceased Medicare
enrollees to prescription drug plan sponsors for coverage periods after the enrollees’ months of
death. CMS made improper payments for 1,500 of the 2.7 million deceased enrollees (far less
than 1 percent of the enrollees who died). As of January 31, 2010, $3,610,710 in improper
payments remained uncollected. CMS’s systems categorized these enrollees as alive or as
having different dates of death than those listed in the SSA death master file. Although CMS
had correctly stopped payments for the vast majority of deceased enrollees, its systems did not
always identify and prevent the improper payments. In addition, CMS did not always recover
payments made on behalf of deceased enrollees on a timely basis.

RECOMMENDATIONS

We recommend that CMS:

   •   recoup the $3,610,710 in payments for deceased Medicare enrollees,

   •   recover improper payments in a timely manner, and




                                                i
   •   implement system enhancements to prevent and detect future improper payments for
       deceased enrollees.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations. However,
with respect to our first recommendation, CMS said that it believed it had recovered the
$3.6 million in payments made for deceased Medicare enrollees. CMS also said that it could
confirm the recovery if we provided the necessary data. With respect to our second and third
recommendations, CMS stated that it had implemented system enhancements that allow it to
recover improper payments immediately after notification of the date of death and to detect and
prevent payments for deceased beneficiaries.

CMS’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in CMS’s comments caused us to change our findings or recommendations. As of
January 2010, CMS had not recouped the $3.6 million in payments made for deceased Medicare
enrollees. Although CMS’s system showed that 439 beneficiaries in our finding were deceased,
it had not recovered these payments back to the dates of death that we verified. CMS’s system
did not show 1,061 of these beneficiaries as being deceased. We provided the requested data to
CMS on February 11, 2011.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicare Prescription Drug, Improvement, and Modernization Act
               of 2003 ......................................................................................................1
              Disenrollment From Prescription Drug Programs for
               Deceased Enrollees ...................................................................................1

          OBJECTIVES, SCOPE, AND METHODOLOGY .................................................2
               Objectives ....................................................................................................2
               Scope ............................................................................................................2
               Methodology ................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          PAYMENTS FOR DECEASED MEDICARE PART D PRESCRIPTION
          DRUG PLAN ENROLLEES ...................................................................................4
               Federal Requirements ..................................................................................4
               Improper Payments ......................................................................................4
               Timeliness of Retroactive Adjustments .......................................................5

          RECOMMENDATIONS .........................................................................................6

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ............6

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................6

APPENDIX

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Medicare Prescription Drug, Improvement, and Modernization Act of 2003

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 1
amended Title XVIII of the Social Security Act by establishing the Medicare Part D prescription
drug benefit, which provides optional prescription drug coverage for individuals who are entitled
to Medicare Part A or enrolled in Part B. The Centers for Medicare & Medicaid Services
(CMS), which administers Medicare, contracts with private prescription drug plans and Medicare
Advantage plans to offer prescription drug benefits to eligible individuals.

Under Part D, which began January 1, 2006, the Medicare program subsidizes the prescription
drug benefit for Medicare enrollees. CMS makes payments at the beginning of each month to
the prescription drug plan sponsors for direct, reinsurance, and low-income cost-sharing
subsidies for individuals enrolled in the prescription drug plans. The amount of the payments
may be different for each enrollee. To calculate the payments, CMS uses a process that
incorporates each enrollee’s demographics and health status information. CMS calculates the
payment using the enrollee’s most current information available when it makes payments to the
prescription drug plans. If CMS receives health status information that would either increase or
decrease the previous monthly payments, it makes retroactive adjustments to correct the payment
level. CMS also reconciles levels of enrollment, risk factors, levels of incurred allowable drug
costs, reinsurance amounts, and low-income subsidies after the end of each year to determine
reconciliation payment adjustments. Thus, CMS routinely makes multiple payment adjustments
after the initial payment for Medicare enrollees. These payments continue for each enrollee until
the month in which the enrollee’s disenrollment becomes effective.

Pursuant to Federal regulations, after an enrollee dies, the last allowable payment is for the
month in which the enrollee died. For deceased enrollees, CMS makes adjustments to correct
the payment levels for the months in which the individual had, before his or her death, been
enrolled in the prescription drug plan. CMS also retroactively recoups any payments made to
prescription drug plans on the behalf of deceased enrollees for the months after the enrollees’
deaths.

Disenrollment From Prescription Drug Programs for Deceased Enrollees

The Social Security Administration (SSA) is CMS’s primary source of information about
deceased enrollees. To identify these deceased individuals, CMS’s Enrollment Database (EDB)
interfaces with SSA’s systems. CMS then records the enrollees’ dates of death in a database
table that is a part of CMS’s Common Tables data structure.

Dates of death are then accessible by several applications, including the EDB, the Medicare
Beneficiary Database (MBD), the Medicare Advantage and Prescription Drug (MARx) system,


1
    The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173, Title I.


                                                         1
and the Common Working File. 2 These applications interact to process disenrollments for
deceased enrollees.

The EDB is CMS’s authoritative source for Medicare entitlement information for the entire
population of past and present Medicare enrollees. The MARx application maintains
information as to when Medicare enrollees enroll in or disenroll from a prescription drug plan.
Both the entitlement information and enrollment information are contained within the Common
Tables data structure. As dates of death are posted to the Common Tables data store, the MBD
output provides the information to the MARx system, which is used to process all enrollment in
and disenrollment from the Medicare Part D program. 3 The MARx system also contains the
related payment history, including adjustments, that shows the specific months for which CMS
made payments to prescription drug plan sponsors for enrollees.

According to CMS, disenrollment of deceased Medicare enrollees from prescription drug plans
should occur in the following manner. When a date of death is posted into the Common Tables
database table (via the EDB’s interface with SSA), the MBD output notifies the MARx system of
the date of death, and the MARx system disenrolls the enrollee from the prescription drug plan at
the end of the month in which the death occurred. The payments, including adjustments that
CMS made on behalf of the deceased enrollee, both for the periods before and after the
enrollee’s death, are included in the MARx system. By using this process, CMS should be able
to prevent and, if necessary, recoup payments made to prescription drug plan sponsors for the
months following an enrollee’s death.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether CMS (1) made payments on behalf of deceased
Medicare enrollees to prescription drug plan sponsors for coverage periods after the enrollees’
months of death and (2) recovered payments made on behalf of deceased enrollees on a timely
basis.

Scope

Our audit included Medicare Part D payments made during January 2006 through
December 2007 for approximately 2.7 million Part D enrollees who, according to SSA, died
between July 1, 2005, and July 31, 2007. These enrollees either were or had been enrolled in a
prescription drug plan. For purposes of this audit, we considered an improper payment to be a
payment that CMS (1) made to a prescription drug plan for coverage in months after an



2
 The Common Working File is the CMS system used by fiscal intermediaries, carriers, and Medicare administrative
contractors to process fee-for-service claims.
3
 The MARx system also processes enrollment/disenrollment transactions for the Medicare Part C program. We
audited payments made after the month of death of Medicare enrollees in the Part C program as part of a separate
audit (A-07-07-01046).


                                                         2
enrollee’s month of death and (2) did not fully recoup and therefore (as of January 2010)
remained uncollected.

We reviewed the internal controls at CMS to the extent necessary to accomplish the audit
objectives. To identify any improper payments, we relied on the accuracy and completeness of
the information contained in the CMS databases discussed earlier. Accordingly, we did not
review or test the accuracy or completeness of those databases.

We performed the fieldwork from December 2008 through July 2010.

Methodology

To accomplish our objective:

    •   We reviewed Federal regulations and CMS’s policies and procedures for payments on
        behalf of Medicare enrollees in Medicare Part D.

    •   We identified enrollees:

             o who, according to SSA’s computer database system as of January 11, 2008, died
               between July 1, 2005, and July 31, 2007;

             o who, according to CMS’s EDB, were enrolled in Medicare Part D prescription
               drug plans only; and

             o for whom CMS made payments to a prescription drug plan sponsor for 1 or more
               months after the enrollee’s death, as shown on the MARx system during the
               period January 2006 through December 2007 (the most recent information
               available at the time we performed our data match). 4

    •   We verified the enrollees’ dates of death by comparing data from SSA’s systems with
        data, as of July 2010, from either the EDB or Accurint. 5

    •   We used updated MARx system information, as of January 2010, to calculate the total
        amount of improper payments made to prescription drug plan sponsors for coverage
        periods on behalf of each deceased enrollee.

    •   We discussed the results of our review with CMS officials and provided them with
        spreadsheets that identified each of the improper payments.


4
 These payment files included retroactive adjustments that extended back to January 2006 and continued through
December 2007.
5
  Accurint is a LexisNexis data depository that contains more than 20 billion records from more than 10,000 data
sources. Accurint’s primary source for dates of death is SSA’s death master file. Accurint also contains death
information from obituaries and State death records.


                                                         3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                FINDINGS AND RECOMMENDATIONS

CMS made approximately $3.6 million of unallowable payments on behalf of deceased Medicare
enrollees to prescription drug plan sponsors for coverage periods after the enrollees’ months of
death. CMS made improper payments on behalf of 1,500 of the 2.7 million deceased enrollees
(far less than 1 percent of the enrollees who died). As of January 31, 2010, $3,610,710 in
improper payments remained uncollected. CMS’s systems categorized these enrollees as alive or
as having different dates of death than those listed in the SSA death master file. Although CMS
had correctly stopped payments for the vast majority of deceased enrollees, its systems did not
always identify and prevent the improper payments. In addition, CMS did not always recover
payments made on behalf of deceased enrollees on a timely basis.

PAYMENTS FOR DECEASED MEDICARE PART D
PRESCRIPTION DRUG PLAN ENROLLEES

Federal Requirements

Federal requirements state that a prescription drug plan sponsor must disenroll an individual
from its prescription drug plan on the death of the individual (42 CFR § 423.44(b)(2)(iii)). Also,
regulations state that “[i]f the individual dies, disenrollment is effective the first day of the
calendar month following the month of death” (42 CFR § 423.44(d)(4)). As a result, the final
payment to the sponsor should be for the month in which the enrollee died.

The Medicare Prescription Drug Benefit Manual, Pub. 100-18, chapter 3, section 40.2.3, states
that CMS will disenroll an individual from a prescription drug plan upon his/her death, and CMS
will notify the prescription drug plan sponsor that the individual has died. 6

Improper Payments

CMS improperly made payments to prescription drug plan sponsors for 1,500 deceased
enrollees. Even though CMS’s systems are designed to interact with SSA systems each month to
identify deceased enrollees, we found uncollected overpayments continued to exist for some
deceased enrollees more than 2 years after SSA had categorized them as deceased (Table 1).




6
    After the audit period, CMS moved this manual provision to section 50.2.3.


                                                           4
                        Table 1: Deceased Enrollees With Uncollected
                           Improper Payments as of January 2010

                               Year of Enrollee’s       Number of
                                     Death              Enrollees
                                     2005                  333
                                     2006                  813
                                     2007                  354
                                     Total               1,500

Each of these enrollees was categorized as deceased in SSA’s computer database systems as of
January 11, 2008. As of January 31, 2010, CMS’s payment systems showed $3,610,710 in
improper payments to prescription drug plan sponsors that remained uncollected. CMS’s
systems categorized these enrollees as alive or as having different dates of death than those listed
in the SSA death master file.

Our analysis of the payment files also found that CMS made several adjustments to recoup
improper payments made after the months in which the enrollees died. Specifically, CMS either
made the correct payments or recovered payments for the months after death in well over
99 percent of the instances in which the Medicare enrollees died.

Timeliness of Retroactive Adjustments

CMS made retroactive adjustments to completely recover overpayments for 2,222 deceased
enrollees. Disenrollment is effective the first day of the calendar month following the month of
death. However, CMS often made adjustments to recover improper payments several months
after an enrollee died (Table 2).

                  Table 2: Delay in Recovery for 2,222 Deceased Enrollees
                            With Payments Recovered in Full

                             Time From Effective              Number of
                        Disenrollment to Full Recovery        Enrollees
                                   1–6 months                     272
                                  7–12 months                     300
                                 13–18 months                     107
                                 19–24 months                   1,004
                                 25–30 months                     427
                                 31–36 months                      89
                                 37–39 months                      23
                                     Total                      2,222

We have provided CMS officials with copies of payment records for each of the 3,722 enrollees
identified in this report.


                                                 5
RECOMMENDATIONS

We recommend that CMS:

   •   recoup the $3,610,710 in payments for deceased Medicare enrollees,

   •   recover improper payments in a timely manner, and

   •   implement system enhancements to prevent and detect future improper payments for
       deceased enrollees.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations. However,
with respect to our first recommendation, CMS said that it believed it had recovered the
$3.6 million in payments made for deceased Medicare enrollees. CMS also said that it could
confirm the recovery if we provided the necessary data. With respect to our second and third
recommendations, CMS stated that it had implemented system enhancements that allow it to
recover improper payments immediately after notification of the date of death and to detect and
prevent payments for deceased beneficiaries.

CMS’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in CMS’s comments caused us to change our findings and recommendations. As of
January 2010, CMS had not recouped the $3.6 million in payments made for deceased Medicare
enrollees. Although CMS’s system showed that 439 beneficiaries in our finding were deceased,
it had not recovered these payments back to the dates of death that we verified. CMS’s system
did not show 1,061 of these beneficiaries as being deceased. We provided the requested data to
CMS on February 11, 2011.




                                               6
APPENDIX
                                                                                            Page 1 of 2
   APPENDIX: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

   DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                Centers for Medicare & Medicaid Services


                                                                          Administrator
                                                                          Washington, DC 20201




DATE:            FEB   ~   4 2011
TO: 	         Daniel R. Levinson
              Inspector General

FROM: 	       Dona.td M.   BerwiC~               \\ \   f\_   ~
              Admlmstrator c::::   ~ (~~
SUBJECT: 	 Office ofInspector General (OIG) Draft Report: Review of Medicare Payments
           to Prescription Drug Plans on Behalf of Deceased Enrollees (A-OS-09-00027)


Thank you for the opportunity to comment on this draft report concerning your review of
payments to Medicare Prescription Drug Plans on behalf of deceased enrollees. The Centers for
Medicare & Medicaid Services (CMS) shares the OIG's concern regarding the accuracy of
payments calculated by the Medicare Advantage Prescription Drug System (MARx).

OIG Recommendation

The OIG recommends that CMS recoup the $3,610,710 in payments for deceased Medicare
enrollees.

CMS Response

CMS concurs with this recommendation, but disagrees that CMS has not yet recouped these
payments.

CMS implemented system enhancements in 2006 and 2007 that allow CMS to detect and recover
improper payments made for deceased Medicare enrollees. While these enhancements were not in
place when some of the improper payments mentioned in the OIG report occurred, the
enhancements allow CMS to retroactively correct improper payments made for deceased
Medicare enrollees. As a result, we believe CMS has recovered the $3.6 million in payments
made for deceased Medicare enrollees reviewed for the OIG report. CMS can confirm that
recovery was made if the OIG provides the necessary data.

OIG Recommendation

 The OIG recommends that CMS recover improper payments in a timely manner.
                                                                                           Page 2 of 2

Page 2   Daniel R. Levinson


CMS Response

eMS concurs with this recommendation and implemented system enhancements in 2006 and 2007
that allow eMS to recover improper payments immediately once eMS is notified of the date of
death. The Social Security Administration (SSA) passes death dates on to eMS in the daily
exchange of data between our two agencies. A notification of death for a Part D enrollee is sent
to the MARx system where an automatic disenrollment is processed for the month after death
and the appropriate payment adjustment is made to recover any overpayment made to the Part D
sponsor. Also, as noted in the third response, eMS has implemented an automated process in
our monthly payment procedures to assure that we have stopped payment to deceased
beneficiaries.

OIG Recommendation

The OIG recommends that eMS implement system enhancements to prevent and detect future
improper payments for deceased enrollees.

CMS Response

eMS concurs with this recommendation, and has implemented system enhancements in MARx to
detect payments to deceased beneficiaries. Beginning in 2007, an automated process was added
to our monthly payment procedures to assure payments are not made for deceased beneficiaries
that are reported to eMS by SSA.

Thank you again for the opportunity to comment on this report.
